84

SB

No.

ORIGINAL
filed
AUG 0 7 2021

IN THE
SUPREME COURT OF THE UNITED STATES

WILLIAM A. MASTERS—PETITIONER
VS.
XAVIER BECERRA, in
his official capacity as the
Attorney General of the
State of California____ —RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

William A. Masters
(Your Name)
18929 Vanowen St
(Address)
Reseda. CA 91335
(City, State, Zip Code)
(8181325-9895
(Phone Number)

l

QUESTIONS PRESENTED
A. Must a Citizen exhaust his State’s remedies before filing in the Federal Court for a decision
upon a Constitutional issue?

B. When a State makes a Pre-hearing seizure of property due to a claimed “emergency
situation”, must the State give an original hearing as soon as practicable after the taking with
full Due Process Rights given to the accused including providing Assistance of Council to
economic indigents?

C. Does an appeal of an Executive Branch taking of property, without a pre- or post-taking
hearing, satisfy the Original Hearing guarantee under the Fourteenth Amendment?

D. Does the Attorney General of California himself constitute:
“a court, board, commission, or other lawful authority
under 27 Code of Federal Regulations 478.11(a), allowing him to legally declare a citizen a
Mental Defective under 18 United States Code 992(g)(4) and strip him of his right to keep
and bear firearms and property?

2

LIST OF PARTIES
[X] All parties appear in the caption of the case on the over page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of all parties
to the proceeding in the court whose judgment is the subject of this petition is as follows:

RELATED CASES
•

Masters v. Beccera, No. 2: 19-cv-02030, U.S. District Court for the Central District of
California. Judgement entered June 18, 2019.

•

Masters v. Beccera, No 19-55757, U. S. Court of Appeals for the Ninth Circuit.
Judgement entered March 16, 2021

•

Masters v. Beccera, No 19-55757, U. S. Court of Appeals for the Ninth Circuit.
Denial of Petition for Panel rehearing (Docket Entry No. 23) July 1, 2021.

3

TABLE OF CONTENTS
OPINIONS BELOW.

Page 5

JURISDICTION................................................................................................

59

5

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

>9

6

STATEMENT OF THE CASE

99

8

REASONS FOR GRANTING THE WRIT

99

17

CONCLUSION

99

18

INDEX TO APPENDICES
APPENDIX A. Oder of the Federal District Court
APPENDIX B. Order of the 9th Circuit Court of Appeals
APPENDIX C. Denial of Petition for Panel Rehearing

TABLE OF AUTHORITIES CITED
CASES
Knick v Township of Scott, No 17-647, 588 U.S..
(2019)
Ex Parte Young, 290 U.S. 123 (1908)...................
Gross v Lopez, 419 U.S. 565 (1975).....................
Mackey v Montrym, 443 U.S. 1,2 (1979.............. .
Goldberg v. Kelly, 397 U.S. 254 (1970)............... .
Palko v. State of Connecticut, 58 U.S.149 (1937).
Armstrong v Manzo, 380 U.S. 545 (1965)............
Baer Gallery, Inc v. Citizen’s Scholarship Fund of Am., 450 F3d 816 (2006)
Hartnagel v Norman, 953 F2d 394 (1992)........................................................
Amer. Bank & Trust Co., v. Dallas County, 463 U.S. 855 (1983)...................
U.S. v. Midgett, 198 F3d 143, Certiorari denied 529 U.S. 1028 (1999)..........
U.S. v Giardia, 861 F.2d 1334 (1988)................................................................
U.S. v Hansel, 474 F.2d 1120 (1973).................................................................
U.S. v Buffaloe, 449 F2d 779 (1977).................................................................
U.S. v Vertz, 102 F.Supp.2d 787, aff. 40 Fed Appx 69 (2002).........................
NLRB v Natural Gas Util. Dist, 402 U.S. 600 (1971).....................................
Young v Hawaii, 824 F.3d 919 (2016)...............................................................
McDonald v. City of Chicago, Illinois, 561 U.S. 742 (2010)..........................
District of Columbia v Heller, 554 U.S. 570 (2008).........................................

PAGE NUMBER

9
10
12
12
12
12
13
14
14
14
14
15
15
15
15
18
18
18
18

4

STATUTES AND RULES
U.S. Constitution, Second Amendment............................. .
U.S. Constitution, Fourteenth Amendment.......................
42 U.S.C. 1983 (Civil Rights Act of 1871)..........................
18 United States Code 922(g)(4)..........................................
27 Code of Federal Regulations, Part 478.11 (a).................
California Welfare and Institutions Code, Section 8100(b)
California Welfare and Institutions Code Section 8102 (a)
California Welfare and Institutions Code, Section 8103(a).

6
6
6
6
6
7
,7
.7

OPINIONS BELOW
The opinions below have not been published.

JURISDICTION
Jurisdiction is granted under 42 U.S.C. 1983 (Civil Rights Act of 1871).
Masters v. Beccera, No. 2: 19-cv-02030, U.S. District Court for the Central District of California.
Judgement entered June 18, 2019.
Masters v. Beccera, No 19-55757, U. S. Court of Appeals for the Ninth Circuit.
Judgement entered March 16, 2021.
Masters v. Beccera, No 19-55757, U. S. Court of Appeals for the Ninth Circuit.
Denial of Petition for Panel rehearing (Docket Entry No. 23),
Judgement entered July 1, 2021.

5

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
U.S. Constitution, Second Amendment.
A well regulated Militia, being necessary to the security of a free State, the right of the people
to keep and bear Arms, shall not be infringed.
U.S. Constitution, Fourteen Amendment.
All persons bom or naturalized in the United States, and subject to the jurisdiction thereof,
are citizens of the United States and of the state wherein they reside. No state shall make or
enforce any law which shall abridge the privileges or immunities of citizens of the United
States; nor shall any state deprive any person of life, liberty, or property, without due process
of law; nor deny to any person within its jurisdiction the equal protection of the laws.
42 United States Code 1983
Every person who, under color of any statute, ordinance, regulation, custom, or usage, of
any State or Territory or the District of Columbia, subjects, or causes to be subjected, any
citizen of the United States or other person within the jurisdiction thereof to the deprivation
of any rights, privileges, or immunities secured by the Constitution and laws, shall be liable
to the party injured in an action at law, suit in equity, or other proper proceeding for redress,
except that in any action brought against a judicial officer for an act or omission taken in
such officer’s judicial capacity, injunctive relief shall not be granted unless a declaratory
decree was violated or declaratory relief was unavailable. For the purposes of this section,
any Act of Congress applicable exclusively to the District of Columbia shall be considered to
be a statute of the District of Columbia.
18 USC 922(g)(4)
(g)It shall be unlawful for any person—
(4) who has been adjudicated as a mental defective or who has been committed to a mental
institution;
to ship or transport in interstate or foreign commerce, or possess in or affecting commerce,
any firearm or ammunition; or to receive any firearm or ammunition which has been shipped
or transported in interstate or foreign commerce.
27 Code of Federal Regulations, Part 478, Subpart B, Section 478.11
“Adjudicated as a mental defective.
(a) A determination by a court, board, commission, or other lawful authority that a person,
as a result of marked subnormal intelligence, or mental illness, incompetency, condition, or
disease:
(1) Is a danger to himself or to others; or
(2) Lacks the mental capacity to contract or manage his own affairs.27 FR

6

California Welfare and Institutions Code, Section 8100(b)
(b) (1) A person shall not have in his or her possession or under his or her custody
or control, or purchase or receive, or attempt to purchase or receive, any firearms
whatsoever or any other deadly weapon for a period of five years if, on or after January
1, 2014, he or she communicates to a licensed psychotherapist (emphasis mine), as
defined in subdivisions (a) to (e), inclusive, of Section 1010 of the Evidence Code, a serious
threat of physical violence against a reasonably identifiable victim or victims.

California Welfare and Institutions Code Section 8102 (a).
(a) Whenever a person, who has been detained or apprehended for examination
(emphasis mine), of his or her mental condition or who is a person described in Section
8100 or 8103, is found to own, have in his or her possession or under his or her control, any
firearm whatsoever, or any other deadly weapon, the firearm or other deadly weapon shall
be confiscated by any law enforcement agency or peace officer, who shall retain
custody of the firearm or other deadly weapon.
California Welfare and Institutions Code, Section 8103(a)
(a) (1) No person who after October 1,1955, has been adjudicated by a court
(emphasis mine), of any state to be a danger to others as a result of a mental disorder ot
mental illness, or who has been adjudicated (emphasis mine), to be a mentally disordered
sex offender, shall purchase or receive, or attempt to purchase or receive, or have in his or
her possession, custody, or control a firearm or any other deadly weapon...

7

STATEMENT OF THE CASE
On February 24, 2018, Attorney General for the State of California Xavier Becerra sent a
letter to me informing me that:
‘The California Department ofJustice is in receipt ofa Daw Enforcement Report ofFirearms Prohibition
from the LAPD MENTAL EVAL UNIT. Accordingly,you are hereby notified thatpursuant to
Welfare and Institutions Code section 8100, subdivision (b)(1)you cannotpossess, have underyour custody
or control, purchase or receive, or attempt to purchase or receive, anyfirearm whatsoever or any other deadly
weaponfor a period of fiveyears, Thefive-yearfirearmprohibition began February 23, 2018 and will expire
February 23, 2023. ”

My rights to own firearms was taken from me without a pre- or post-hearing under
California's Welfare and Institutions Code (WIC) 8100(b). While my firearms were physically taken
from me without a pre- or post-hearing under WIC 8102(a).
The language of 8100(b) and 8102(a) are in stark contrast to WIC 8103(a). 8103(a) states”
“ No person who after October 1, 1955, has been adjudicated by a court...”
Here the State clearly recognizes the right of the Judiciary to determine if a person is qualified to
own firearms. 8103(a) specifically uses language that mirrors the controlling federal legislation
18 USC 922(g)(4) which reads:
“(gflt shall be unlawfulfor any person—
(4) who has been adjudicated as a mental defective... ”

This mirror language was no coincidence. However, in Section 8100 and 8102, there is no
adjudication by a court requirement only that:
•

In 8100 a “licensed psychiatrist” make and allegation to the state that some kind of
“serious threat” was made in their presents.
8

•

While section 8102 merely requires a person to be “detained or apprehended for
examination of his or her mental condition”

These two sections of California’s Welfare and Institutions Code fall well shy of the legal
requirement under 18 USC 922(g)(4) to strip a citizen of their Second Amendment rights and
property, and are therefore unconstitutional violations of the Fourteenth Amendment’s Due Process
protection and the Second Amendment. The States may mirror federal law in their state’s laws, but
they may not be more stringent than the Federal law, as federal law is controlling over federal issues.
I filed suit in Federal District Court for the Central District of California challenging the
taking as an unconstitutional violation of my Due Process and the Second Amendment Rights as I
was given no pre- nor post-hearing in which to defend myself, and I did not meet the standard of
922(g)(4).

Judge Fitzgerald dismissed my suit.

Judge Fitzgerald’s grounds for dismissal were:

1. I failed to exhaust State’s Remedies in that I did not avail myself of the Appeal granted by
the State law; and,
2. The Attorney General was immune to prosecution do to State Sovereignty.

I appealed to the Ninth Circuit Court writing that Judge Fitzgerald’s first ground for
dismissal “exhaustion” of state remedies was in error writing that it:
“...violates 42 U.S.C. 1983 (Civil Rights Act of 1871). Three days after the District Court handed
down its ruling the Supreme Courtpassed down its ruling in KNICK vs. TOWNSHIP OF SCOTT, No.
17-647, 588 U.S.___ (2019).
ChiefJustice Roberts writingfor the majority in KNICK
“ The San Remo preclusion trap should tip us offthat the state-litigation requirement rests on a mistaken
view of the Fifth Amendment. The Civil Rights Act of 1871, after all, guarantees “afederalforumfor
claims ofunconstitutional treatment at the hands ofstate officials, ’’and the settled rule is that “exhaustion of
state remedies “is not a prerequisite to an action under [42 U.S.C.] 1983. ’’’Heck v Humphrey 512 U.S.
477, 480 (1994) (quoting Patsy v Board ofRegents ofFla., 457 U.S. 496, 501 (1982)). Rut the
guarantee ofafederalforum rings hollowfor takingsplaintiffs, who areforced to litigate their claims in state
'Courts- —
■
* =.

9

Just as someone whose property has been taken by the federal Government has a claim ‘founded... upon
the Constitution” that he may bring under the TuckerAct, someone who’sproperty has been taken by a local
government has a claim under 1983for a deprivation ofa right secured by the Constitution ” that he may
bring upon the taking infederal court. The ‘general rule” is thatplaintiffs may bring constitutional claims
under 1983 “withoutfirst bringing any sort ofstate lawsuit even when state court actions addressing the
underlaying behavior are available ” D. Dana <& T. Merril, Property Takings 262 (2002); see McNees v.
Board ofEd. Tor Community Unit School Dist. 187, 373 U.S. 668, 672 (1963)”
I further argued that Judge Fitzgerald’s second ground “Sovereign Immunity” failed under EX
PARTE YOUNG [290 U.S. 123 (1908)] writing:
“In YOUNG, as herein, an order was sought to stop the Attorney General ofMinnesotafrom enforcing a
law claimed to be unconstitutional. The State in YOUNG, claimed Sovereign Immunity under the Eleventh
Amendment as the State of California’s Attorney General claims here.
Justice Peckham writingfor the majority states that it was not hardfor the Justices to determine that the law
in question was unconstitutional, but the question before the Court was not one ofconstitutionality, but rather
one of “enforcement” could thefederal courts stop the enforcement ofa law that was unconstitutional?
The majority determined that the Suprematy Clause of the 14th Amendmentgave the Court the right to do
so, and destroyed any claim ofSovereign Immunityfinding that the 14th Amendment had amended the 11th
Amendment writing:
"If the act which the state Attorney General seeks to enforce be a violation of the Federal Constitution, the
officer in proceeding under such enactment comes into conflict with the superior authority ofthat Constitution,
and he is in that case stripped ofhis official or representative character and is subjected in hisperson to the
consequences ofhis individual conduct. The State has no power to impart to him any immunity from
responsibility to the supreme authority ofthe United States. See In re Ayers, supra, page 507."

In the State’s Answer to the appeal, the Attorney General claimed that I had no Second
Amendment Rights under 18 USC 922(g)(4) because the Attorney General of the State of California
determined on his own initiative, without a determination by a “court, board, commission or other
lawful authority” [27 Code of Federal Regulations, Part 478.11(a)], that I was a “mental defective”.
This Power of Judge and Jury, the Attorney General claimed, was given to him by California’s
Welfare and Institutions Code 8100 et al.
The State wrote:
■tUmj^sections-Sd-OOJb^nd-Sd-OPfff-arefiari-of-theJatger-frammor^fflaws-that-^egulates-firearmsfbrthose who are involuntarily committed or receiving treatment for mental health
10

“Here, sections 8100(b) and 8102(a) are part ofthe largerframework oflaws that regulatesfirearmsfor
those who are involuntarily committed or receiving treatment for mental health
disorders (emphasis mine). In particular, section 8100(b) restricts individualsfrom possessingfirearms
who, during the course ofmental health treatment, communicate a “serious threat ofphysical violence against
a reasonably identifiable victim or victims” to a licensedpsychotherapist. ” [Answering Brief Pg. 19-20].

In my Reply to the State’s Answer, I argued that the Attorney General is not a “court, board,
commission, or other lawful authority” as required by 478.11, and so does not have the power to
declare me a Mental Defective under 922(g)(4) writing:
“The state knowsfully well, that I have never been “involuntarily committed” nor
have I “received treatmentfor a mental health disorder”, and the state offers no proof otherwise in support of
their claim. ’
Tederal laws make clear that those who are “adjudicated” as mental defectives in a hearing appropriate to
the charge against them, are not allowed to possessfirearms. The State herein admits that no such hearing
has ever taken place, and so, federal law makes clear that the Appellantpossesses hisfull Second
Amendment Rights.
The State’s Attorney General holds, without legal support, that Masters is, in its opinion, a mental defective,
however that allegation has never been adjudicated, and therefore is merely the State’s opinion, and not the
law.
Allpersons are innocent ofany charge made against them until that charge isproven to be true in a Due
Process Hearing appropriate to the charge being made against them. ”

The Ninth Circuit Court of Appeals ruled, de novo, that the dismissal was proper because:
“Appellant did not allege facts sufficient to state a plausible claim, and did not avail himself ofthe appeal
granted in the California Welfare and Institutions Code 8103. ”

11

The Supreme Court of the United States has recognized there are justifiable emergency
situations in which a Pre-hearing taking of property is proper and constitutional, however, in those
situations a trial must follow as soon as practicable, see GROSS v LOPEZ, 419 U.S. 565 (1975)
“ There are recurring situations where prior notice and hearing cannot he insisted upon, ’
‘In such cases, the necessary notice and rudimentary hearing should follow as soon as practicable
(emphasis mine). ”Id.at 582-83 ”
[See also, MACKEY v MONTRYM, 443 U.S. 1 (1979)].

It is held by the California Attorney General, that the State’s Welfare and Institutions Code
Section 8100(b) allows him to act as prosecutor and judge and, without a hearing of any kind, and
strip me of my rights and properties.
This power granted him by California’s Welfare and Institutions Code 8100(b) is in full
violation of dozens of rulings by this court and the other 11 Circuits, such as in:
GOLDBERG v. KELLY, 397 U.S. 254 (1970):
“Before depriving a citizen of life, liberty, orproperty, the government mustfollowfair andjustjudicial
procedures. It mustprovide afull hearing before an impartialjudicial officer. The right to an attorney’s help.
The right to present evidence and argument orally. The chance to examine all materials that would be relied
upon or, to confront and cross-examine adverse witnesses, or a decision limited to the record thus made and
explained in an opinion.”
PALKO v. STATE if CONNECTICUT 58 U.S.149 (1937):
“Due process oflaw’, under this clause, requires that condemnation shall be rendered only after trial, and that
the hearing must be a real one, and not a sham orpretense (emphasis mine).”

The State of California also holds that the State of California has no duty to bring the
Appellant to trial and prove their accusations of mental deficiency or illegal threat. They say this is
constitutional because the WIC 8103 grants the accused the right to an appeal of the takings to the
Superior Court of California.

12

Herein, the State of California repeats the argument of the State of Texas in ARMSTRONG
v MANZO, 380 U.S. 545 (1965), that whatever deficiency that the accused incurred was remedied
by the granting to him of an appeal of the State’s Actions afterward. In ARMSTRONG the Court
disagreed writing:
“Many controversies have raged about the cryptic and abstract words of the Due Process Clause, but there can
be no doubt that, at a minimum, they require that deprivation of life, liberty orproperty by adjudication be
preceded by notice and opportunityfor hearing appropriate to the nature of the case. Mullane v. Central
Hanover Bank & Tr. Co., 339 U. S. 306, at 339 U. S. 313.
An elementary andfundamental requirement of due process in any proceeding which is to be accordedfinality
is notice reasonably calculated, under all the circumstances, to apprise interestedparties ofthe pendeny of the
action and afford them an opportunity to present their objections. Milliken v. Meyer, 311 U.S. 457;
Grannis v. Ordean, 234 U. S. 385; Priest v. Board of Trustees of Town ofHas Vegas, 232 U. S. 604;
Roller v. Holly, 176 U. S. 398. ’
The hearing subsequently granted to petitioner did not remove the constitutional infirmity, since petitioner was
forced to assume burdens ofproof which, had he been accorded notice ofthe adoption proceedings, would have
rested upon the movingparties.” Bp. 380 U. S. 550-552.
Had the petitioner been given the timely notice which the Constitution requires, the Mangos, as the moving
parties, would have had the burden ofproving their case as against whatever defenses the petitioner might have
interposed. [See Jones v. Willson, Tex.CivApp., 285 S.W.2d 877; Exparte Payne, 301 S.W.2d 194].’
The burdens thusplaced upon the petitioner were real, notpurely theoretical. Tor "it is plain that where the
burden of prooflies may be decisive of the outcome." Speiser v. Randall, 357 U. S. 513, 357 U. S. 525.
Yet these burdens would not have been imposed upon him had he been given timely notice in accord with the
Constitution. ’’Page 380 U. S. 552
More egregious is the fact that the State of California at this “appeal” is NOT required to
prove guilt! The guilt of the accused is assumed to be true, and so, the State need only show, by
preponderance of evidence, that the person may not be capable of safely using firearms at that time,
not that he is a mental deficient nor that any illegal threat(s) were made. All of the burdens placed
upon the State by 18 USC 922(g)(4) and the Fourteenth Amendment’s Due Process Clause are
wiped away by the State’s Welfare and Institutions Code Section 1800 et al.
With the State of California’s refusal to being me to a hearing and bear the burden of the
Prosecutor. I am from the start place into the position of the Moving Party, and as such denied the

13

rights and protections of the Non-moving Party. No service of charges, no Discovery, and no
Assistance of Council at the Public’s expense.
It has been Repeatedly held by the federal Judiciary as in:
BAER GALLERY, INC v. CITIZEN’S SCHOLARSHIP FUND OF AMERICA 450 F3d
816 (2006):
‘The Court must view the record in the light mostfavorable to the nonmoving party (emphasis mine),
and afford it all reasonable inferences. ”
HARTNAGEL v NORMAN, 953 F2d 394 (1992):
“Procedurally the movingparty bears the responsibility ofinforming the district court ofthe basisfor its
motion and identifying those portions ofthe record which shows a lack ofgenuine issue. ”
Being forced to become the Moving party from the outset, the State has violated my rights as the
accused, and stripping me of valuable protections under the law.
The Attorney General further claims that he is a “legal authority” under Title 27 Code of
Federal Regulations Part 478, Subpart B “Definitions”, Section 478.11. And that his evaluation and
final opinion of a report he claims to have received that makes an allegation against me constitutes
an “adjudication” of the allegation. Thus, the State argued before the 9th Circuit that I have no
Second Amendment rights as I was adjudicated by the Attorney General to be a Mental Deficient
under 18 USC 922(g)(4).
The meaning and the essential nature of the “adjudication” requirement of 18 USC 922
(g)(4) have been clearly laid out:
AMERICAN BANK & TRUST CO. v. DALLAS COUNTY, 463 U.S. 855 (1983)
“Outpatient treatment may constitute commitment to a mental institution. Specific language requires only
commitment to a mental institution not in a mental institution. Thus, a Court ordered outpatient treatment
constitutes commitment to a mental institution.
U.S. v. MIDGETT 198 F3d 143, Certiorari denied 529 U.S. 1028 (1999)
“Defendant had been committed to a mental institution within meaning ofstatute which prohibits possession
the state’sformal civil commitmentprocess.
14

Defendant was examined by a competent mental health practitioner who determined he was not competent to
stand trial, he was represented bj counsel, factualfindings were made by ajudge who heard evidence, and a
conclusion was reached by thejudge that defendant sufferedfrom mental illness to such a degree that he was in
need ofimpatient hospital care, and ajudicial order was issued committing defendant to a mental institution,
where he was actually confined there. ”
U.S. v GIARDIA, 861 F.2d 1334 (1988)
“The Defendant’s involuntary hospitalisation, pursuant to physician’s and coroner’s emergency certificates,
did not constitute a “commitment to a mental institution” within the meaning of the statue prohibiting such
persons from receiving andpossessingfirearms; commitment did not occur until the courtformally acted. ”
U.S. v Hansel, 474 F.2d 1120 (1973).
“Thefinding by the Mental Health Board of the County in Nebraska that the defendant was mentally ill
was not an adjudication ofmental defectiveness within meaning ofsubsection (g)(4) of this section prohibiting
a personfrom receiving afirearm after having been adjudicated a mental defective since the term “mental
defective” as used in this chapter does not include mental illness. ’
Defendant’s hospitalisation, pursuant to order ofBoard of Mental Health ofLancaster County, Nebraska
was not a “commitment" within meaning ofsubsection (g)(4) ofthis section prohibiting a personfrom
receivingfirearm after having been committed to a mental institution, where under Nebraska law an
individual may be committed to a hospital if superintendent ofstate mental hospital determines that the
individual is mentally ill and then certifies such determination to the County Board ofMental Health, and
there was no evidence that the superintendent had determined that the defendant was mentally ill or had
conveyed any certification to the Board. ”
U.S. v BUFFALOE, 449 F2d 779 (1977)
“Where defendant had been tried in state courtformaiming found not guilty by reason ofinsanity and
committed to the state hospital as criminally insane person. The defendant had been adjudicated and
committed within the section which prohibits sale offirearms to a person who has been adjudicated as a
mental defective or has been committed to any mental institution. ”
U.S. v Vertz, 102 F.Supp.2d 787, aff. 40 Fed Appx 69 (2002)
“Finding by a State judge that defendant was aperson requiring treatment because he was mentally ill was
not an adjudication ofmental defectiveness within meaning ofstatute absent afinding that the defendant was
a danger to himself or to others, or that he lacked mental capacity to contract or manage his own affairs.

It is clear from these and other cases that some form of legal hearing must take place at
which:
The accused and his counsel stand before an impartial “judge, board, commission or other lawful
authority” and defends the accused from the claims of the State. While the State is made to bear the
burden to prove guilt, if the State wishes its actions to possess finality.

15

In this case, I have never been accorded the right to defend myself in an original proceeding,
neither before the taking nor as soon as practicable after the taking.
My only recourse is to file an appeal of the taking by the State wherein I am the Moving Party.
Wherein I do not have the right to a Public Defender, and I bear the presumption of guilt!
My guilt of the accusation during the appeal is presumed by the court to be true. No burden to
prove the allegations against me is placed upon the State. I am guilty because the Attorney General
says I am!
Federal Law clearly mandates that a person is innocent until proven guilty to the legal
requirement. That I be “adjudicated” to be a mental defective in a hearing at which the State takes
up the Prosecutorial Burden before an impartial Hearing Officer appropriate to the charge. It does
NOT allow the Attorney General to act as both Prosecutor and Hearing Officer, and to do so
without any hearing and opportunity for the Defendant to be heard, or receive the aid of counsel at
the public’s expense.

16

REASONS FOR GRANTING THE WRIT
The court should grant Certiorari because this case is about this court’s very meaning and
survival.
The actions of the State of California and of the Ninth Circuit Court of Appeals herein
constitute treason! Their refusals to obey the rulings of this court constitutes an attempt to create a
sub government within the United States wherein our Constitutional protections no longer exist,
and this Court has no power to protect us from the State’s power to destroy.
They are trying to create States wherein the States may bar citi2ens from having a federal
judge settle an issue of Constitutional importance. States wherein the States are no longer bothered
by having to provide defendants with notice of charges, discovery, public jury trials, crossexamination, and Public Defenders. And mostly importantly, a place where the State’s Officers are
never bothered by our uppity Supreme Court of the United States!
This ruling by the State and the Ninth Circuit is a declaration of war against the Constitution
of our Nation. Both the State and the Nineth Circuit know it is nearly impossible for a Pro Se to get
a Writ accepted by the court. So, they rule whatever they wish to however egregious.
There is no reasonable debate among legal scholars of the meaning and protections granted
by the Civil Rights Act of 1871 [42 USC 1983], or of the Fourteenth’s Due Process clause, nor of
what constitutes an adjudication under 18 USC 922(g)(4).
This Court, just over a year ago in KNICK v TOWNSHIP OF SCOTT, PENNSYLVANIA
held that State mandates that federal questions be settle first in State Courts are unconstitutional.
Yet here is the Ninth Circuit refusing to obey a ruling of this court in which the ink has barely dried.
If this court allows the Ninth Circuit to get away with this insolence, it will spread to the other

17

circuits, who are well aware of the limited docket of this court. These legal issues are settled
questions of law, settled by this court!
“Whether a person is a prohibitedperson under 922(g)(4) is a question offederal lanP
NLRB v NATURAL GAS UTIL. DIST., 402 U.S. 600 (1971)), but not according to the Ninth
Circuit Court of Appeals and the State of California. That question, they hold, is a question for the
Attorney General of California, and to hell with the Supreme Court of the United States.
Also, take note, this is not the first attack upon the Second Amendment’s existence by the
Ninth Circuit. A year past in YOUNG v HAWIAII, the Ninth ruled that citizens have no right to
bear arms openly. Years earlier the Nineth held that citizens have no right to bear arms concealed,
thus completely eliminating the right to bear arms from the Constitution and this Court’s ruling in
MACDONALD. This only leaves citizens with the choice of carrying their arms locked and or
disassembled in a locked case, as mandated by California law. This mandate, however, was declared
unconstitutional by the court in DISTRICT OF COLUMBIA v HELLER in 2008. Such laws
reduced the firearm to a state of non-use barring its use for the core purpose of self-defense.
Unconstitutional laws, and unconstitutional rulings by a rouge State, and a Rouge Ninth
Circuit Court. Who will stop them?

CONCLUSION
Respectively submitted,

August 6,2021
William A. Masters, II
18

